No:
TO THE
SUPREME COURT OF THE UNITED STATES

Frances Endencia
Petitioner
vs
Mario & Leticia Arce & Wells Fargo
Respondents

As required by Supreme Court Rule 33.1(g,h) & (d), I, Dr Frances Endencia,
DVM is a plaintiff in pro sec. certify this Writ of Certiorari has 2,074 words,
excluding title, Questions Presented, Disclosure Statement, Procedural History,
Table of Contents, Table of Authorities & Appendix.
I declare, under penalty of perjury that the foregoing is true and correct.
Executed on February

, 2021.

Frances Endencia, Plaintiff in Pro Sec
73 S Lincoln Ave, Unit 1 Rear
Aurora IL 60505
FEndencia@gmail.com.
630.656.2854

